                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-ACF-14-16                                    Office of Audits                                  December 2013




             Compliance Followup Audit of
           Bureau of Oceans and International
           Environmental and Scientific Affairs
            Administration and Oversight of
              Funds Dedicated To Address
                 Global Climate Change



IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.


                                                                    ,1---ll-----_
                                             Norman P. Brown
                                             Acting Assistant Inspector General
                                              for Audits
                                  UNCLASSIFIED

Acronyms

A/LM/AQM Bureau of Administration, Office of Logistics Management, Office of
          Acquisitions Management
A/OPE    Bureau of Administration, Office of the Procurement Executive
CFA      compliance followup audit
COR      contracting officer’s representative
DOSAR    Department of State Acquisition Regulation
DQA      Data Quality Assessment
ESF      Economic Support Funds
F        Office of Foreign Assistance Resources
FAH      Foreign Affairs Handbook
FAM      Foreign Affairs Manual
FAR      Federal Acquisition Regulation
GO       Grants Officer
GOR      Grants Officer Representative
GPD      Grants Policy Directive
M        Under Secretary for Management
OES      Bureau of Oceans and International Environmental and Scientific Affairs
OES/EGC  Bureau of Oceans and International Environmental and Scientific Affairs, Office
          of Global Change
OIG      Office of Inspector General
OMB      Office of Management and Budget
PIB      Procurement Information Bulletin
SOP      standard operating procedure
USAID    U.S. Agency for International Development




                                  UNCLASSIFIED
                                                      UNCLASSIFIED

                                                       Table of Contents
Section                                                                                                                                Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Compliance Followup Audit Objectives ..........................................................................................4

Compliance Followup Audit Results From Report AUD/CG-12-40 ..............................................4
      Recommendation 1 ..............................................................................................................5
      Recommendation 2 ..............................................................................................................6
      Recommendation 3 ..............................................................................................................6
      Recommendation 4 ..............................................................................................................7
      Recommendation 5 ..............................................................................................................8
      Recommendation 6 ..............................................................................................................8
      Recommendation 7 ..............................................................................................................9
      Recommendation 8 ..............................................................................................................9
      Recommendation 9 ............................................................................................................10
      Recommendation 10 ..........................................................................................................10
      Recommendation 11 ..........................................................................................................11
      Recommendation 12 ..........................................................................................................12
      Recommendation 13 ..........................................................................................................14
      Recommendation 14 ..........................................................................................................15
      Recommendation 15 ..........................................................................................................16
      Recommendation 16 ..........................................................................................................16
      Recommendations 17 and 18 .............................................................................................18

List of Modified, Reissued, and New Recommendations..............................................................21

Appendices
      A. Scope and Methodology................................................................................................23
      B. Original Recommendations From Report AUD/CG-12-40 ..........................................25
      C. Bureau of Oceans and International Environmental and Scientific Affairs Response .28

Major Contributors to This Report ................................................................................................33




                                                      UNCLASSIFIED
                                             UNCLASSIFIED

                                          Executive Summary
       The Government Accountability Office (GAO) identified climate change as a high-risk
area within the Federal Government in February 2013.1 In fact, GAO determined that climate
change was a complex, crosscutting issue, where many Federal entities manage related programs
and activities.2 The majority, $75 million, of the Department of State’s (Department) FY 2013
foreign assistance request for $120.5 million3 for global climate change is administered through
the Bureau of Oceans and International Environmental and Scientific Affairs (OES).

         In 2012, the Office of Inspector General (OIG) performed an audit of OES’
administration and oversight of funds dedicated to address global climate change to be
responsive to global developments and the priorities of the Department.4 In the audit report, OIG
identified a number of areas that required greater management attention in order to improve
administration and oversight of climate change programs and interagency agreements. As a
result, in July 2012, OIG made 16 recommendations to OES and two recommendations to the
Bureau of Administration, Office of the Procurement Executive (A/OPE). In March 2013, OIG
closed eight of these recommendations (Nos. 2, 5, 6, 7, 8, 9, 14, and 15) after verifying evidence
that OES had provided showing that final corrective actions had been completed. At that time,
OIG considered the remaining 10 recommendations resolved, pending final action.

        Because of GAO’s emphasis on climate change and the Department’s important role,
OIG performed a compliance followup audit (CFA) to evaluate the corrective actions taken by
OES and A/OPE in response to OIG’s report. The objectives of this CFA were to assess the
Department’s actions with respect to selected open recommendations (Nos. 1, 12, 13, 17, and 18)
from the prior report and determine whether they should be closed or reissued and to review one
closed recommendation (No. 15) to determine whether original deficiencies were fully
addressed. Following initial discussions with OES and A/OPE officials on the status of the open
recommendations from AUD/CG-12-40, OIG expanded its original scope to include an
assessment of the Department’s actions on all open recommendations from the report.

        Overall, OIG found that the Department was making progress in addressing the
deficiencies identified and in implementing the corrective actions recommended in
AUD/CG-12-40. All 10 remaining resolved AUD/CG-12-40 recommendations will be closed
with the issuance of the new followup report. Of the original AUD/CG-12-40 recommendations,
Recommendation 3 and Recommendation 4 will be closed based on evidence that the
recommendations were implemented. Evidence provided in response to AUD/CG-12-40
Recommendation 18 was not sufficient to meet the recommendation’s full intent, and additional
actions are necessary. Consequently, OIG incorporated the intent of AUD/CG-12-40
Recommendation 18 into a new recommendation (No. 9) to the Under Secretary for Management
(M) to assign authority and responsibility for the oversight, review, and approval of

1
  GAO, High-Risk Series: An Update (GAO-13-283, Feb. 14, 2013).
2
  GAO, Climate Change: Improvements Needed To Clarify National Priorities and Better Align Them with Federal
Funding Decisions (GAO-11-317, May 2011).
3
  FY 2013 Congressional Budget Justification, Vol. 2 - Foreign Operations (Feb. 13, 2012), p. 17.
4
  Audit of Bureau of Oceans and International Environmental and Scientific Affairs Administration and Oversight of
Funds Dedicated To Address Global Climate Change (AUD/CG-12-40, July 2012).


                                                  1
                                             UNCLASSIFIED
                                          UNCLASSIFIED

nonacquisition interagency agreements that will ensure compliance with applicable Federal
regulations and Department policies governing them. OIG has modified, as appropriate,
AUD/CG-12-40 Recommendations 1, 10, 11, 12,5 13, 16, and 17 to address actions still to be
taken and has reissued the recommendations as Nos. 1–8 in this report.

       OIG could not determine whether the original deficiencies that led to
Recommendation 15 were corrected because OES did not make any new solicitations or enter
into any new interagency agreements or grants subsequent to the recommendation’s
implementation before the end of fieldwork. However, no matters came to OIG’s attention that
would lead OIG to believe that the corrective actions taken in implementing
Recommendation 15, or any of the other implemented recommendations, would fail to fully
address the original deficiencies identified in AUD/CG-12-40.

      OIG met and discussed the results and recommendations in this report with officials from
M on September 23, 2013; from A/OPE on September 25, 2013; and from OES on October 24,
2013.

Management Comments

      In November 2013, OIG provided a draft of this report to and requested comments from
OES, A/OPE, and M.

        In the December 11, 2013, response (see Appendix C) to the draft report, OES agreed
with the seven recommendations addressed to it and stated that OES had completed actions
related to Recommendation 4 and had begun taking action to address the remaining
recommendations. For Recommendations 3 and 6, OES stated that it will complete actions after
A/OPE issues Department policies on nonacquisition interagency agreements that are currently
in draft. Based on this response, OIG considers Recommendations 1, 2, 3, 5, 6, and 7 resolved,
pending further action, and Recommendation 4 closed. Management's responses and OIG's
replies to those responses are included after each recommendation.

       As of December 31, 2013, neither A/OPE nor M had responded to the draft report.
Therefore, Recommendations 8 and 9 are considered unresolved.

                                             Background
        GAO identified climate change as a high-risk area within the Federal Government in
February 2013.6 In fact, GAO has determined that climate change is a complex, crosscutting
issue, where many Federal entities manage related programs and activities.7 The majority,
$75 million, of the Department’s FY 2013 foreign assistance request for $120.5 million8 for
global climate change is administered through OES. Within OES, the Office of Global Change

5
  AUD/CG-12-40 Recommendation 12 was reissued as Recommendations 4 and 5 in this report; consequently, the
seven recommendations from the prior report now total eight recommendations in this report.
6
  GAO-13-283, Feb. 14, 2013.
7
  GAO-11-317, May 2011.
8
  FY 2013 Congressional Budget Justification, Vol. 2 - Foreign Operations (Feb. 13, 2012) p. 17.


                                               2
                                          UNCLASSIFIED
                                               UNCLASSIFIED

(OES/EGC) develops and coordinates U.S. policy on global climate change and on climate
resilience and adaptation, and it funds and monitors programs on environmental aspects of clean
energy and forest issues.

        Between October 2011 and March 2012, OIG conducted a performance audit to
determine whether the administration and the oversight by OES were sufficient to ensure that
contributions made toward international climate change efforts were expended in accordance
with Department policy and were contributing to the U.S. Government’s global climate change
goals. The resulting OIG report (No. AUD/CG-12-40), issued in July 2012, found a number of
areas that required greater management attention and made 18 recommendations (listed in
Appendix B) to improve OES administration and oversight of climate change programs.

        Specifically, OIG found that OES did not always follow guidance on how to execute
Data Quality Assessments (DQA) to ensure that data used to report and support programmatic
results were accurate. In addition, OIG found that policy guidance relating to managing and
monitoring climate change grants and interagency acquisition agreements was not always
followed by OES. Finally, OIG determined that OES did not always administer interagency
acquisition agreements in accordance with Department policies and Federal regulations.
Consequently, according to Department officials, interagency acquisition agreements emanating
from OES were not always efficiently and effectively administered and managed in the areas of
policy application, review and approval, and overall program management, and OES did not
always have reasonable assurance that funds for climate change had been expended in
accordance with Department policies; that the recipient had performed program activities as
stipulated in the awards or agreements; and that the program’s indicators, goals, and objectives
had been achieved.

        OIG considers a recommendation “unresolved,” “resolved,” or “closed” based on the
actions that the Department has taken or plans to take with respect to the recommendation.9 An
unresolved recommendation is one in which the Department has neither taken actions nor has
stated how it plans to implement the recommendation. A resolved recommendation is one in
which the Department has agreed to implement the recommendation or one in which the
Department has begun, but not yet completed, actions to fully implement the recommendation.
A closed recommendation is one in which the Department has completed actions necessary to
implement the recommendation and OIG has determined that no additional action is required.

       Based on OES’ agreement with Recommendations 1–16 and A/OPE’s agreement with
Recommendations 17 and 18 in the draft report, OIG considered all 18 recommendations
resolved upon issuance of AUD/CG-12-40. OIG considered Recommendations 2, 5, 6, 7, 8, 9,
14, and 15 closed as of March 20, 2013, based on documented evidence of actions taken by OES


9
  Office of Management and Budget Circular A-50, Revised, “Audit Followup,” Sept. 29, 1982. The circular
requires that Federal agencies “assure the prompt and proper resolution and implementation of audit
recommendations” made by Inspectors General, other executive branch audit organizations, the Government
Accountability Office, and non-Federal auditors. Secs.1, 5, 8a(2), and 8a(3) of the circular further require that
agencies (1) resolve recommendations within a maximum of 6 months after the issuance of a final report; (2)
implement corrective actions as rapidly as possible; and (3) specify criteria for proper resolution and corrective
actions that provide for written plans for corrective actions with specified action dates, where appropriate.


                                                    3
                                               UNCLASSIFIED
                                              UNCLASSIFIED

to meet the intent of the recommendations. The remaining 10 recommendations were considered
resolved at the start of this CFA in May 2013.

                             Compliance Followup Audit Objectives
        The objectives of this compliance followup audit were to assess the Department’s actions
with respect to selected open recommendations (Nos. 1, 12, 13, 17, and 18) from the prior report
(No. AUD/CG-12-40) and determine whether the recommendations should be closed or reissued
and whether the original deficiencies for one closed recommendation (No. 15) were fully
addressed. Following initial discussions with OES and A/OPE officials on the status of the open
recommendations from AUD/CG-12-40, OIG expanded its original scope to include an
assessment of the Department’s actions on all open recommendations from the report.

                               Compliance Followup Audit Results
       OIG found that the Department was making progress in addressing the administration and
oversight deficiencies identified in AUD/CG-12-40 and was implementing the corrective actions
recommended. OIG is closing all 10 of the remaining AUD/CG-12-40 resolved
recommendations with the issuance of this compliance followup report. However, seven of the
AUD/CG-12-40 recommendations are being revised, as appropriate, and reissued in this report as
Recommendations 1–810 to address actions still to be taken. In addition, a new recommendation
(No. 9) is also being issued.

        Specifically, OIG found that OES had completed corrective actions for AUD/CG-12-40
Recommendations 3 and 4 of the report’s recommendations and had planned corrective actions
or had started taking corrective actions that should meet the intent of the other six resolved
recommendations made to OES. In addition, OIG found that although A/OPE had taken
considerable actions with respect to AUD/CG-12-40 Recommendations 17 and 18 by drafting
new policies and procedures for interagency acquisition agreements (issued in January 2013) and
nonacquisition interagency agreements (still in draft),11 OIG also found that A/OPE’s actions in
response to Recommendation 18 would not be sufficient to meet the report’s full intent.
Although the Procurement Executive indicated that A/OPE would ensure that the Procurement
Information Bulletin (PIB) on nonacquisition interagency agreements was codified in the
Foreign Affairs Manual (FAM) and the Foreign Affairs Handbook (FAH), he also indicated that
each bureau had sole responsibility for its nonacquisition interagency agreements and that neither
his office nor any other entity within the Department had the authority to provide oversight and
to monitor all bureaus’ compliance with these requirements. Consequently, OIG incorporated
the intent of AUD/CG-12-40 Recommendation 18 into a new recommendation (No. 9) to the
Under Secretary for Management (M) to assign authority and responsibility for the oversight,
review, and approval of nonacquisition interagency agreements that would ensure compliance
with applicable Federal regulations and Department policies governing the agreements.

10
   The seven recommendations from the prior report now total eight recommendations in this report because
AUD/CG-12-40 Recommendation 12 was reissued as Recommendations 4 and 5 in this report.
11
   Nonacquisition interagency agreements are interagency agreements for other than acquisitions, referred to in the
draft PIB as “Interagency Agreements.”


                                                   4
                                              UNCLASSIFIED
                                      UNCLASSIFIED


        In addition, OIG was not able to determine whether the original deficiencies that led to
Recommendation 15 were corrected because OES did not write any new solicitations or enter
into any new interagency agreements or grants subsequent to the recommendation’s
implementation. However, no matters came to OIG’s attention that would lead it to believe that
the corrective actions taken in implementing Recommendation 15, or any of the other closed
recommendations, would fail to fully address the original deficiencies identified in
AUD/CG-12-40.

       OIG met with officials from OES, A/OPE, and M in September and October 2013 and
discussed the results and recommendations in this report.

AUD/CG-12-40 Recommendation 1. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, conduct Data
Quality Assessments in accordance with the six-step methodology from the annual guidance
provided by the Office of U.S. Foreign Assistance Resources to ensure that the data used in
reporting results are as complete, accurate, consistent, and supportable as possible.

        Background: OIG made this recommendation because OES did not fully implement the
guidance for conducting DQAs to help ensure that the data used in reporting programmatic
results were complete, accurate, consistent, and supportable. Without fully implementing DQAs
that consider appropriate sources of data, reviewing methodologies used by sources to collect
and validate data, and verifying what recipients have provided with evidence of processes and
raw data sources, the data used by OES to report programmatic results for climate change
programs cannot be consistently relied upon by decision-makers.

       Compliance Followup Audit Results: OIG found that OES was in the process of
contracting for an independent company to conduct the DQA process in keeping with Office of
U.S. Foreign Assistance Resources (F) standards. OES expected the DQA contract to be
awarded before September 30, 2013, and the DQA process was expected to be completed in
2014. The DQA checklist for 2013 was updated to a seven-step methodology.

       Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 1 and
modifying and reissuing it in this report as Recommendation 1 to address the unimplemented
aspects of the DQA process and to reflect the seven-step DQA process.

       Recommendation 1. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs conduct Data Quality Assessments in accordance
       with the seven-step methodology from the annual guidance provided by the Office of
       U.S. Foreign Assistance Resources to ensure that the data used in reporting results are as
       complete, accurate, consistent, and supportable as possible.

       Management Response: OES agreed with the recommendation and provided
       documentation that a contract had been awarded in September 2013 to conduct DQAs in
       accordance with the seven-step methodology from annual guidance provided by the
       Office of the Director of U.S. Foreign Assistance Resources. OES further stated that the


                                           5
                                      UNCLASSIFIED
                                      UNCLASSIFIED

       retained firm had conducted DQA processes against indicators in the funded portfolio and
       would continue these activities to help ensure that the data used in OES’ reporting results
       are well supported.

       OIG Reply: OIG reviewed the documentation provided and found that OES had
       included information in the contract to incorporate the use of the seven-step methodology
       from the annual guidance provided by the Office of U.S. Foreign Assistance Resources.
       OIG considers this recommendation resolved, pending further action. This
       recommendation can be closed when OES provides a timetable of when it expects to
       complete DQAs for current interagency agreements and copies of the first two completed
       DQAs.

AUD/CG-12-40 Recommendation 2. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change (OES/EGC),
implement Grants Policy Directive 16, “Designation of Grants Officer Representative,” by
ensuring that the Grants Officer completes current Grants Officer Representative (GOR)
designation memorandums throughout the lifecycles of all grants. OES/EGC should also update
its Standard Operating Procedures (SOP) manual by aligning all monitoring and evaluation
responsibilities under the designated GOR, as directed by Grants Policy Directive 16, and by not
allowing the re-delegation of responsibilities to other program officials unless specified in the
designation memorandum.

        Background: OIG made this recommendation because it found, in its review of seven
climate change grants, that although all seven grants had an original GOR designation
memorandum, the three designated GORs for all seven grants vacated their positions at some
point during the execution of those grants and only one grant file contained a new designation
memorandum for a replacement GOR to assume the original GOR’s responsibilities. In lieu of a
newly designated GOR for the other grants, OES representatives stated that two project
management officials “tag teamed” in overseeing climate change grants and performing GOR
duties. Having a designated GOR during the lifecycle of a grant is important to ensure that a
bureau has an authorized representative to exercise prudent management and oversight of the
award through monitoring and evaluating the recipient’s performance. While additional support
by Technical Leads of certain program aspects is likely to strengthen a program’s overall impact,
responsibilities designated to a GOR should not be re-delegated to other program officials to
ensure prudent and continuous management and oversight of grant recipients’ performance.

       Compliance Followup Audit Results: OIG found that OES had implemented GPD 16
and that there was alignment of monitoring and evaluation responsibilities in the SOP for the
designated GOR that met the intent of the recommendation.

        Status: OIG closed AUD/CG-12-40 Recommendation 2 on March 20, 2013, based on the
actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 3. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, ensure that the
Grants Officer Representatives, in consultation with the Grants Officer, develop monitoring


                                           6
                                      UNCLASSIFIED
                                      UNCLASSIFIED

plans for all future grant awards using the suggested Department of State templates included in
Grants Policy Directive 42, “Monitoring Assistance Awards.”

        Background: OIG made this recommendation to address OES’ lack of both (1)
monitoring plans for any of the seven grants reviewed and (2) evidence of monitoring activities
by OES GORs to ensure that the goals and objectives of the grant award were achieved and
funds were spent accordingly. Without documented monitoring plans, OIG was unable to
determine what monitoring activities OES’ GORs had used to ensure that the goals and
objectives of the grant award were achieved and funds were spent accordingly.

       Compliance Followup Audit Results: OIG found that OES had developed monitoring
plans using the template included in Grants Policy Directive (GPD) 42 and approved by the
Grants Officer (GO) for the one grant and the one cooperative agreement that were finalized at
the end of FY 2012.

        Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 3 based on the
actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 4. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, implement the
requirement in Grants Policy Directive 16, “Designation of Grants Officer Representative,” for
the Grants Officer Representatives (GOR) to review, analyze, and provide written evaluations of
required recipient Program Performance and Financial Status Reports to verify timely and
adequate performance and require the GORs’ written evaluations to be documented using the
template included in Grants Policy Directive 42, “Monitoring Assistance Awards.”

         Background: OIG made this recommendation because it did not find evidence that
reviews of quarterly performance and financial reports had been documented by the GORs as
required by GPD 16 and that the evaluations had been documented using the template in
GPD 42. Without appropriate review, analysis, and written evaluation of grantees’ performance
and financial reports, OES may not always have reasonable assurance that program goals and
objectives are being achieved throughout the project or that the grantee is performing program
activities as dictated in the grant agreement. By documenting reviews of quarterly reports, OES
could support the reported progress made in accomplishing each assistance award task, including
progress by fiscal year, on meeting goals, objectives, and indicators. The documented review
would also support that all expenditures were made in accordance with the approved budget and
that the amount of funds expended was commensurate with the level of activity that had
occurred.

       Compliance Followup Audit Results: OIG found that OES had implemented the
recommendation and the requirements of GPD 16 and that GORs were documenting evaluations
of grantee performance and financial reporting using the template included under GPD 42.

        Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 4 based on the
actions taken by OES that met the intent of the recommendation.



                                           7
                                      UNCLASSIFIED
                                       UNCLASSIFIED

AUD/CG-12-40 Recommendation 5. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, take appropriate
actions in accordance with the Foreign Affairs Handbook (4 FAH-3 H-674) when program
performance reports and financial reports are not submitted in a timely manner.

        Background: OIG made this recommendation after finding that quarterly performance
and/or financial reports had been submitted late for all seven grants reviewed during the audit,
often with no followup procedures having been performed by the program office. Without the
submission of timely performance and financial reports and without proper followup by OES on
delinquent reports or suspension of all payments until the overdue reports are filed, OES could
not have reasonable assurance that Federal funds were spent in an appropriate manner or that
program activities were performed as dictated in the grant award.

       Compliance Followup Audit Results: OIG found that OES had taken appropriate action
in accordance with the Foreign Affairs Handbook (4 FAH-3 H-674) to document when program
performance reports and financial reports were not submitted in a timely manner.

        Status: OIG closed AUD/CG-12-40 Recommendation 5 on March 20, 2013, based on the
actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 6. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, implement the
guidance provided in Grants Policy Directive (GPD) 16, “Designation of Grants Officer
Representative,” and GPD 42, “Monitoring Assistance Awards,” and require Grants Officer
Representatives to perform site visits for each grant recipient at least once during the life of the
agreement or once per year for those recipients identified as “high risk.” These visits should
then be documented on templates similar to the Monitoring Assistance Review Guide Worksheet
template included in GPD 42.

         Background: OIG made this recommendation after finding that although OES had
conducted two site visits for climate change programs funded via grants in September 2008 and
April 2010, OES’ GORs had not completed the in-depth reviews as prescribed in the
Department’s GPD 16 and GPD 42 during their site visits. Without active monitoring through
regular site visits and data verification and without thoroughly documenting reviews of those site
visits, OES cannot have reasonable assurance that data used for performance-based decision
making and for reporting are valid and reliable. A program to monitor data quality with regular
site visits, especially for those grant recipients considered “high-risk,” may identify and prevent
data from being unreliable.

         Compliance Followup Audit Results: OIG found that OES was using the guidance
provided in GPD 16 and GPD 42 and that GORs were performing site visits for grant recipients
at least once during the term of the agreement.

        Status: OIG closed AUD/CG-12-40 Recommendation 6 on March 20, 2013, based on the
actions taken by OES that met the intent of the recommendation.



                                            8
                                       UNCLASSIFIED
                                        UNCLASSIFIED

AUD/CG-12-40 Recommendation 7. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, update the
language in its formal solicitation letters for grant awards, as well as the language in all formal
grant awards, to include the requirement for all recipients to provide timely performance reports
that describe achievements in terms of progress toward meeting indicators, as well as goals and
objectives.

        Background: OIG made this recommendation after finding, for the grants that it had
reviewed, that (1) OES/EGC awards did not include language in the grants that required
recipients to submit performance reports that described achievements in terms of progress toward
meeting indicators, as well as goals and objectives; (2) OES/EGC GORs did not always notify
the GO about changes to the terms and conditions of the grant agreement, which required an
amendment to be executed; and (3) OES/EGC GORs did not always obtain the final performance
and financial reports from the respective recipients to ensure that final deliverables were
achieved, that funds were reconciled, and that the project was properly closed out.

        Compliance Followup Audit Results: OIG found that OES had updated the language in
its formal solicitation letters for grant awards, as well as the language in all formal grant awards,
to include the requirement for all recipients to provide timely performance reports that describe
achievements in terms of progress toward meeting indicators, as well as goals and objectives.

        Status: OIG closed AUD/CG-12-40 Recommendation 7 on March 20, 3013, based on the
actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 8. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, utilize Grants
Policy Directive 28, “Roles and Responsibilities for the Award and Administration of Federal
Assistance,” and the Standard Terms and Conditions for Domestic and Overseas Federal
Assistance Awards to develop standard operating procedures that document responsibilities of
the Grants Officer Representative for monitoring the terms and conditions of all grant awards
and promptly notifying the Grants Officer (GO) of all changes that require the GO’s attention.

        Background: OIG made this recommendation after finding that OES GORs did not
consistently notify the GO about changes to the terms and conditions of the grant agreement,
which required an amendment to be executed for two of the grants reviewed as part of OIG’s
sample. It is imperative that the GOR promptly notify the GO of any changes to the award to
ensure compliance with the terms and conditions dictated in the award. Without prompt
notification, OES could not ensure that recipients of assistance awards were being managed
prudently.

        Compliance Followup Audit Results: OIG found that OES had updated its standard
operating procedures for monitoring the terms and conditions of all grant awards per GPD 28
and also included a process for promptly notifying the GO of all changes requiring the GO’s
attention.




                                             9
                                        UNCLASSIFIED
                                       UNCLASSIFIED

        Status: OIG closed AUD/CG-12-40 Recommendation 8 on March 20, 2013, based on the
actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 9. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, develop procedures
to ensure that the final reports of a recipient are obtained and reviewed by the Grants Officer
Representative for proper closeout of the project and that these documents are submitted in a
timely manner to the Grants Officer for final review and closeout.

        Background: OIG made this recommendation because OES’ GORs did not obtain, for
two of the seven grants OIG reviewed, the final performance and financial reports from the
recipient to ensure that final deliverables were achieved, that funds were reconciled, and that the
project was properly closed out. Without OES’ GORs obtaining the final performance and
financial reports for review and submission to the GO for proper closeout, the question of
whether the program was conducted and completed in accordance with the objectives and goals
of the award may be difficult to answer.

       Compliance Followup Audit Results: OIG found that OES had updated standard
operating procedures to include a process to require the receipt of final reports for review by the
GOR for project closeout and a timeline for the submission of final reporting to the GO for final
review and closeout.

        Status: OIG closed AUD/CG-12-40 Recommendation 9 on March 20, 2013, based on the
actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 10. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs formally designate qualified and trained
contracting officer’s representatives for all interagency acquisition agreements in accordance
with the Department’s State First Policy and Department of State Acquisition Regulations,
Part 642, who are knowledgeable of the monitoring and oversight duties established in the
Department’s Contracting Officer’s Representative Handbook.

        Background: OIG made this recommendation after finding that four of the five
interagency acquisition agreements it reviewed contained no evidence that OES had designated a
contracting officer’s representative (COR) as required by the State First Policy. Without trained
CORs who are designated to ensure comprehensive monitoring of interagency agreements, OES
might not have reasonable assurance that the monitoring duties that would normally be carried
out by a COR were, in fact, being performed and might not be able to support whether Federal
funds were spent in accordance with the agreement, that the recipient performed project activities
as dictated in the agreement, and that program goals and objectives were achieved.

        Compliance Followup Audit Results: OIG found that OES was formally designating
qualified and trained CORs for interagency acquisition agreements, in accordance with the
Department’s State First Policy and Department of State Acquisition Regulations (DOSAR),
Part 642, who are knowledgeable of the monitoring and oversight duties established in the
Department’s Contracting Officer’s Representative Handbook. In addition, pursuant to


                                            10
                                       UNCLASSIFIED
                                      UNCLASSIFIED

Recommendations 17 and 18 of report AUD/CG-12-40, A/OPE had developed new
comprehensive Department policies and procedures—PIB 2013-03, dated January 30, 2013—on
the management and oversight of interagency acquisition agreements that replaced the
Department’s State First Policy. A/OPE was also developing new comprehensive policies and
procedures on the management and oversight of nonacquisition interagency agreements to be
codified in a PIB that was in draft form at the time of this audit. After the new nonacquisition
PIB is issued, OES needs to designate appropriate qualified and trained personnel to administer
interagency acquisition agreements pursuant to the appropriate PIB.

       Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 10 and
modifying and reissuing it in this report as Recommendation 2 to specifically cite the new
A/OPE-issued PIB for interagency acquisition agreements and the yet-to-be issued PIB for
interagency nonacquisition agreements, as well as DOSAR, Part 642.

       Recommendation 2. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs formally designate qualified and trained contracting
       officer’s representatives or other monitoring and oversight personnel for all interagency
       agreements in accordance with the Department’s Procurement Information Bulletin 2013-
       03 and the Department of State Acquisition Regulations, Part 642, or the Procurement
       Information Bulletin on nonacquisition interagency agreements when issued.

       Management Response: OES agreed with the recommendation and stated that it had
       designated qualified and trained contracting officer's representatives for all interagency
       agreements for acquisition in accordance PIB 2013-03 and the Department of State
       Acquisition Regulations, Part 642. In addition, OES stated that it was consistently
       designating qualified and trained interagency agreement managers for all nonacquisition
       interagency agreements. Upon issuance of the PIB for nonacquisition interagency
       agreements, OES agreed to update its own standard operating procedures, as necessary,
       to ensure that designated OES monitoring and oversight personnel meet any new
       Department qualifications in accordance with that policy.

       OIG Reply: OIG considers this recommendation resolved, pending further action. OIG
       reviewed the documentation provided and found that OES had formally designated CORs
       for its interagency acquisition agreements in accordance with the Department's PIB 2013-
       03. However, full compliance with this recommendation cannot be determined until after
       the PIB on nonacquisition interagency agreement is issued. This recommendation can be
       closed when OIG reviews and accepts documentation showing that OES has formally
       designated qualified monitoring and oversight personnel in accordance with the PIB on
       nonacquisition interagency agreements when issued.

AUD/CG-12-40 Recommendation 11. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, request and review
performance and financial supporting documentation, as advised by the Federal Assistance
Policy Handbook, to substantiate the information contained in the required reports received from
interagency acquisition agreement recipients and that it maintain appropriate documentation of
those reviews.


                                           11
                                      UNCLASSIFIED
                                      UNCLASSIFIED

       Background: OIG made this recommendation after it was unable to fully substantiate the
performance and financial reports for the five climate change interagency acquisition agreements
sampled. Without appropriate review and documentation of performance and financial reports
submitted by the funds’ recipients, OES could not have reasonable assurance that program goals
and objectives were met or that activities were performed as dictated in the agreement.

       Compliance Followup Audit Results: OIG found that OES had suspended action on
implementing this recommendation pending A/OPE’s issuance of new policies and procedures
on the management and oversight of interagency agreements. As previously stated under
Recommendation 10, A/OPE issued PIB 2013-03 to provide Department-wide SOPs for
interagency acquisition agreements and was drafting a PIB for nonacquisition interagency
agreements. After the new nonacquisition interagency agreement PIB is issued, OES needs to
incorporate into its SOPs the relevant requirements for substantiating documentation for
interagency agreements pursuant to those policies and guidance contained in the Federal
Assistance Policy Handbook.

      Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 11 and
modifying and reissuing it in this report as Recommendation 3 to change the action office to
OES and to add a citation for the two new PIBS.

       Recommendation 3. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs request and review performance and financial
       supporting documentation, as advised by the Department’s Procurement Information
       Bulletin 2013-03, or the as-yet unissued Procurement Information Bulletin on
       nonacquisition interagency agreements when it is issued and the Federal Assistance
       Policy Handbook to substantiate the information contained in the required reports
       received from interagency acquisition agreement recipients and to maintain appropriate
       documentation of those reviews.

       Management Response: OES agreed with the recommendation and stated that OES,
       insofar as advised by PIB 2013-03 or the as-yet unissued PIB on nonacquisition
       interagency agreements when issued and the Federal Assistance Policy Handbook, will
       request and review performance and financial supporting documentation to substantiate
       the information contained in the required reports received from interagency acquisition
       agreement recipients and will maintain appropriate documentation of those reviews.

       OIG Reply: OIG considers this recommendation resolved, pending further action. This
       recommendation can be closed when OIG reviews and accepts documentation showing
       that OES is requesting and reviewing performance and financial supporting
       documentation on interagency agreements.

AUD/CG-12-40 Recommendation 12. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change (OES/EGC),
develop appropriate standard operating procedures to ensure that reporting requirements are met
by interagency acquisition agreement recipients and, if they are not, that appropriate steps are
taken to address delinquent reporting. Also, OES should coordinate with the Office of U.S.


                                           12
                                      UNCLASSIFIED
                                      UNCLASSIFIED

Foreign Assistance Resources to properly account for the $600,000 in Economic Support Funds
transferred to the U.S. Agency for International Development (USAID) and, if determined
appropriate, work to return the funds to the Department of State for appropriate use or de-
obligation.

        Background: OIG made this recommendation after finding that none of the recipients of
the five agreements it reviewed had filed the required reports in a timely manner and that there
was no evidence that OES had had any procedures in place documenting the steps to be taken in
the event of noncompliance with reporting requirements. In not ensuring the timely submission
of performance and financial reports by interagency acquisition agreement recipients or by not
having standard operating procedures for followup and repercussions because of noncompliance,
OES could not have reasonable assurance that program activities were being performed as
dictated in the agreement or that Federal funds were being spent in an appropriate manner.
Specifically, without the timely submission of performance reports from USAID or appropriate
followup by OES, the Department was unable to address the funds transfer promptly or account
for $600,000 in Department funds.

       Compliance Followup Audit Results: OIG found that OES had updated its SOP in
accordance with the Foreign Assistance Handbook and that it had drafted, but had not issued,
Program and Policy Notice 2013-005, which outlines interagency reporting compliance and
delinquency procedures. OES informed OIG that it was working to properly account for the
$600,000 in Economic Support Funds (ESF) and that it would provide OIG with documentation
to support a determination on the ultimate disposition of the funds.

        Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 12 and
modifying and reissuing it as two separate recommendations, No. 4 and No. 5, in this report in
order to address the issuance of draft Program and Policy Notice 2013-005 and the $600,000 in
ESF identified in the original recommendation.

       Recommendation 4. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs formally issue Program and Policy Notice 2013-005
       to ensure that reporting requirements are met by interagency acquisition agreement
       recipients and, if they are not, that appropriate steps are taken to address delinquent
       reporting.

       Management Comments on Draft Report: In its response to the draft report, OES
       informed OIG that Program and Policy Notice 2013-005 had been issued and provided
       OIG with a copy of that notice.

       OIG Reply: Based on the OES’ response and the copy of Program and Policy Notice
       2013-005, OES has met the intent of the recommendation. Therefore, OIG considers the
       recommendation closed, with no further action required.

       Recommendation 5. OIG recommends that the Bureau of Oceans and International
       Environmental and Scientific Affairs document the results of accounting for the $600,000
       in Economic Support Funds transferred to the U.S. Agency for International


                                           13
                                      UNCLASSIFIED
                                       UNCLASSIFIED

       Development and the determination regarding whether or not the funds should be
       returned to the Department of State.

       Management Response: OES agreed with the recommendation and stated that OES will
       continue to document the results of accounting for the $600,000 in Economic Support
       funds transferred to the U.S. Agency for International Development. OES also confirmed
       that the programmatic activity for which the funds were transferred was implemented in
       good faith by USAID.

       OIG Reply: OIG considers this recommendation resolved, pending further action. This
       recommendation can be closed when OIG reviews and accepts documentation showing
       that OES has documented the results of accounting for the $600,000 in Economic
       Support Funds transferred to USAID and the determination regarding whether or not the
       funds should be returned to the Department of State.

AUD/CG-12-40 Recommendation 13. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, implement the
guidance provided in the Department of State’s Foreign Affairs Handbook and the Contracting
Officer’s Representative Handbook and require contracting officer’s representatives to perform
site visits for each interagency agreement recipient at least once during the life of the agreement
or once a year for those recipients identified as “high risk.”

        Background: OIG made this recommendation after determining that OES had conducted
only one site visit for climate change programs administered via interagency acquisition
agreements. The single site visit, however, did not include a review of receipts or other
documentation for expenditures to substantiate financial progress or a review of documentation
that supported performance reports submitted to OES, which served as evidence that activities
had occurred. Without active monitoring through site visits, especially for those recipients
considered “high-risk,” OES could not have reasonable assurance that performance results were
consistent with stated goals and objectives.

         Compliance Followup Audit Results: OIG found that OES had suspended action on
implementing this recommendation pending A/OPE’s issuance of new policies and procedures
on the management and oversight of interagency agreements. As previously stated under report
AUD-CG/12-40 Recommendation 10, A/OPE had issued PIB 2013-03 to provide Department-
wide SOPs for interagency acquisition agreements and was drafting SOPs for nonacquisition
interagency agreements. After the new nonacquisition PIB is issued, OES needs to incorporate
these relevant policies and procedures, along with guidance provided in the Department of
State’s Foreign Affairs Handbook and the Contracting Officer’s Representative Handbook, into
its SOPs regarding the designation of appropriate personnel and requirements for performing site
visits for interagency agreement recipients.

        In discussing OES’ planned actions, OES officials stated that they were confused about
the term “high-risk” as it applied to other Federal entities. These officials stated that they were
more familiar with the term in relation to grantees, but they questioned the need or value of



                                            14
                                       UNCLASSIFIED
                                             UNCLASSIFIED

labeling a Federal agency as “high-risk.”12 OIG agrees that other Federal agencies would not be
expected to meet the definition as it is applied to grantees. However, because not all interagency
agreements are alike, prudent oversight would include developing evaluative factors that assess
whether an interagency agreement may merit closer coordination and added site visits. These
factors could include the nature of the services requested (for example, more or less
experimental), their value, or their location.

      Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 13 and
modifying and reissuing it in this report as Recommendation 6 to add a citation for the two new
PIBS and to clarify the need for a tiered approach to the number of site visits required.

        Recommendation 6. OIG recommends that the Bureau of Oceans and International
        Environmental and Scientific Affairs implement the guidance provided in the
        Department’s Procurement Information Bulletin 2013-03 and the Contracting Officer’s
        Handbook or the as-yet unissued Procurement Information Bulletin on nonacquisition
        interagency agreements when issued, and the Department’s Foreign Affairs Handbook, as
        appropriate, to develop evaluative factors to identify interagency agreements that may
        merit closer coordination and require interagency agreement monitoring personnel to
        perform site visits for each interagency agreement recipient at least once during the life of
        the agreement or more frequently depending on the assessment of evaluative factors.

        Management Response: OES agreed with the recommendation and stated it will
        develop evaluative factors in accordance with the cited guidance.

        OIG Reply: OIG considers this recommendation resolved, pending further action. This
        recommendation can be closed when OIG reviews and accepts documentation showing
        that OES has developed evaluative factors to identify interagency agreements that may
        merit closer coordination and has required interagency agreement monitoring personnel
        to perform site visits for each interagency agreement recipient at least once during the life
        of the agreement or more frequently depending on the assessment of evaluative factors.

AUD/CG-12-40 Recommendation 14. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs obtain State First waivers for all future
interagency agreements and maintain approved waivers in its files, as required by State First
Policy.

        Background: OIG made this recommendation after finding that OES had not obtained
State First waivers in advance, as required, to ensure that an interagency acquisition agreement
was the best procurement approach for OES and the Department. Without these waivers, neither


12
   The Code of Federal Regulations, 45 CFR 92.12, “Special Grant or Subgrant Conditions for “High-Risk
Grantees,” states the following: “ a) [A] grantee or subgrantee may be considered “high-risk” if an awarding agency
determines that a grantee or subgrantee: 1) Has a history of unsatisfactory performance, or 2) Is not financially
stable, or 3) Has a management system which does not meet the management standards set forth in this part, or 4)
Has not conformed to terms and conditions of previous awards, or 5) Is otherwise not responsible; and if the
awarding agency determines that an award will be made, special conditions and/or restrictions shall correspond to
the high risk condition and shall be included in the award.”


                                                  15
                                             UNCLASSIFIED
                                      UNCLASSIFIED

OES nor the Department could have reasonable assurance that utilizing an interagency
acquisition agreement provided the best overall approach to implement climate change programs.

       Compliance Followup Audit Results: OIG found that OES had obtained State First
waivers for interagency agreements and was maintaining approved waivers in its files, as
required by State First Policy.

        Status: OIG closed AUD/CG-12-40 Recommendation 14 on March 20, 2013, based on
the actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 15. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs, Office of Global Change, update the
language in its formal solicitation letters for interagency agreements, as well as the language in
all formal interagency agreements, to include the requirement for all recipients to provide timely
performance reports that describe achievements in terms of progress toward meeting indicators,
as well as goals and objectives.

        Background: OIG made this recommendation after finding that OES agreements did not
include language that required recipients to submit performance reports that described
achievements in terms of progress toward meeting indicators, as well as goals and objectives.
While each agreement’s scope of work included the information requested by OES in its formal
solicitation letter, OIG determined that by not requiring a recipient’s performance reports to
report a program’s progress by indicator, as well as by project outcomes and milestone
achievements, OES program officials might not be able to readily discern whether climate
change indicators were being met.

         Compliance Followup Audit Results: OIG found that OES had updated the language in
formal solicitation letters for interagency agreements and in formal interagency agreements to
include the requirement that all recipients should provide timely performance reports that
describe achievements in terms of progress toward meeting indicators and goals and objectives.
OIG could not determine whether the original deficiencies were corrected because OES did not
make any new solicitations or enter into any new interagency agreements subsequent to the
recommendation’s implementation. However, no matters came to OIG’s attention that would
lead it to believe that the corrective actions taken in implementing this recommendation would
fail to fully address the original deficiencies identified in AUD/CG-12-40.

        Status: OIG closed AUD/CG-12-40 Recommendation 15 on March 20, 2013, based on
the actions taken by OES that met the intent of the recommendation.

AUD/CG-12-40 Recommendation 16. OIG recommends that the Bureau of Oceans and
International Environmental Scientific Affairs, Office of Global Change, update the language in
its formal solicitation letters for interagency agreements, as well as the language in all formal
interagency agreements, to include, for purposes of substantiation, the requirement for all
recipients to maintain supporting documentation for all financial expenditures and all project
activities and pertinent achievements as reported in the recipients’ performance and financial
reports.


                                           16
                                      UNCLASSIFIED
                                       UNCLASSIFIED

       Background: OIG made this recommendation because OES agreements did not include
language that required recipients to maintain supporting documentation for financial
expenditures and all pertinent achievements for purposes of substantiation. While other Federal
agencies should not need to be reminded of the importance of maintaining supporting
documentation, OES’ CORs will be better prepared to properly monitor the financial progress
and programmatic performance of the agreements if specific language is included in all
interagency agreements that requires recipients to maintain supporting documentation for
financial expenditures and all pertinent achievements for purposes of substantiation.
Implementing OIG’s recommendation should ultimately enable OES to ensure that Department
funds are being spent judiciously and that program indicators, goals, and objectives are being
achieved.

        Compliance Followup Audit Results: OIG found that OES had suspended action on
implementing this recommendation pending A/OPE’s issuance of new policies and procedures
on the management and oversight of interagency agreements. As previously stated in OIG’s
discussion of the compliance review results for AUD/CG-12-40 Recommendation 10, A/OPE
issued PIB 2013-03 to provide Department-wide guidance for interagency acquisition
agreements and stated that it was drafting SOPs for nonacquisition interagency agreements.
After the new nonacquisition PIB is issued, OES will need to incorporate these relevant policies
and procedures along with its own developed requirements for the maintenance of supporting
documentation into its formal solicitation letters for interagency agreements and in all formal
interagency agreements. Requirements for maintaining supporting documentation should
include, for purposes of substantiation, the requirement for all recipients to maintain supporting
documentation for all financial expenditures, all project activities, and pertinent achievements as
reported in the recipients’ performance and financial reports.

         Status: With this report, OIG is closing AUD/CG-12-40 Recommendation 16 and
modifying and reissuing it as Recommendation 7 to update the language in its formal solicitation
letters for interagency agreements and the interagency agreements themselves in accordance with
the Department’s PIB 2013-03 or the PIB on nonacquisition interagency agreements when
issued, as appropriate.

       Recommendation 7. OIG recommends that the Bureau of Oceans and International
       Environmental Scientific Affairs update the language in its formal solicitation letters for
       interagency agreements, as well as the language in all formal interagency agreements, in
       accordance with the Department’s Procurement Information Bulletin 2013-03 or the
       Procurement Information Bulletin on nonacquisition interagency agreements when
       issued, to include, for purposes of substantiation, the requirement for all recipients to
       maintain supporting documentation for all financial expenditures, all project activities,
       and pertinent achievements as reported in the recipients’ performance and financial
       reports.

       Management Response: OES agreed with the recommendation and stated that it has
       already updated the language in its formal solicitation letters for interagency agreements,
       as well as the language in all newly issued or amended interagency agreements, to
       inc1ude, for purposes of substantiation, the requirement for all recipients to maintain


                                            17
                                       UNCLASSIFIED
                                       UNCLASSIFIED

       supporting documentation for all financial expenditures, all project activities, and
       pertinent achievements as reported in the recipients' performance and financial reports.

       OIG Reply: OIG considers this recommendation resolved, pending further action. OIG
       reviewed the documentation provided and found that OES had updated the language in its
       solicitation letters and interagency agreements in accordance with the Department's
       Procurement Information Bulletin 2013-3 to include a requirement for all recipients to
       maintain supporting documentation for all financial expenditures, all project activities,
       and pertinent achievements. However, full compliance with this recommendation cannot
       be determined until after the PIB on nonacquisition interagency agreement is issued.
       This recommendation can be closed when OIG reviews and accepts documentation
       showing that the language in OES solicitation letters and interagency agreements
       regarding maintenance of supporting documentation meets the requirements of the final
       PIB on nonacquisition interagency agreements.

AUD/CG-12-40 Recommendations 17 and 18

Recommendation 17. OIG recommends that the Procurement Executive develop and issue
standardized policies and procedures for Department of State-wide use for the administration of
interagency acquisition agreements and interagency agreements in accordance with pertinent
Federal regulations and revise the State First Policy to establish that the policy also applies to
interagency agreements, since the policy as written represents sound business practices.

Recommendation 18. OIG recommends that the Procurement Executive, in coordination with
the Director, Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management, develop and issue standardized policies and procedures for the review and
approval of all types of interagency agreements that will ensure compliance with applicable
Federal regulations and Department of State policies governing each type of agreement.

        Background: Based on its review of a sample of interagency acquisition agreements
administered by OES for climate change programs, a review of pertinent Federal regulations and
Department policies, and discussions with officials from A/OPE and A/LM/AQM, OIG made
these two recommendations after determining that OES did not consistently administer
interagency acquisition agreements in accordance with pertinent Federal policies. The officials
stated that this situation occurred because there were no standardized policies and procedures
governing the execution of agreements by OES and other Department bureaus to ensure
compliance with Federal policies. As a result, interagency agreements executed by OES—and
possibly other Department bureaus—may not be efficiently and effectively administered and
managed in the areas of policy application, review, and approval and overall program
management.

        Compliance Followup Audit Results: OIG found that A/OPE had gathered and had led a
working group of key Department officials to develop standardized policies and procedures for
the administration of interagency agreements. This working group convened in the fall of 2012
and, after considerable deliberation, decided that two separate sets of policies and procedures



                                            18
                                       UNCLASSIFIED
                                             UNCLASSIFIED

were needed to address the two types of interagency agreements: acquisition13 versus other than
acquisitions (that is, nonacquisition or assistance).

         A/OPE issues PIBs, which it considers as effective as the guidance codified in the FAM,
the FAH, or the DOSAR, because PIBs can be issued relatively quickly compared with the time
it takes to update those three sets of regulations. A/OPE issued PIB 2013-03, “Acquisitions
Agreements,” dated January 30, 2013, which defines the interagency acquisition agreements for
the Department. The PIB’s requirements became effective on March 1, 2013, and (1) required a
written Best Procurement Approach Determination drafted by the requesting bureau that
establishes the business case for using another agency for Department acquisition support and (2)
required hat a detailed interagency acquisition agreement provides a template for defining the
responsibilities of the parties. It also stated that the Director, A/LM/AQM, approves any
decision to use another agency for an assisted acquisition and that agreements exceeding
$1 million will be reviewed by the Office of the Assistant Legal Advisor for Building and
Acquisitions. The Procurement Executive stated that his office would update the FAM and the
FAH for this PIB after a short implementation period to take into account any needed
adjustments resulting from the deployment of this new PIB. These changes had not been made
as of August 2013 when this CFA was being performed.

        As of September 2013, the PIB for nonacquisition interagency agreements was still not
issued, and A/OPE informed OIG that it expected the PIB to be issued in the fall of 2013 with an
effective date of FY 2014. However, A/OPE did not share a copy of this draft with OIG. While
A/OPE prescribes the Department’s acquisition and Federal assistance policies, regulations, and
procedures,14 the Procurement Executive stated that his authority applies only to acquisitions and
grants and not to other nonacquisition interagency agreements that are identified as 632(a) or
632(b) interagency transfers,15 which are the subject of the second PIB. Consequently, although
A/OPE has led the initiative to provide new guidance (in the form of the two PIBs) for all
interagency agreements as recommended in report AUD/CG-12-40 and the Procurement
Executive has indicated that A/OPE will ensure that the PIBs are revised as necessary and are
codified in the FAM and the FAH, he noted that each bureau had sole responsibility for its
respective nonacquisition interagency agreements. He also stated that neither his office nor any
other entity within the Department had the authority to provide oversight and monitor all
bureaus’ compliance with these requirements. He further stated that in addition to not having the
authority needed to review and oversee interagency agreements for nonacquisition transfers, his
office had neither the knowledge or experience nor the resources to monitor, review, and
challenge the use of nonacquisition agreements as a financial management tool. Without
designating, assigning, and/or delegating an office with this responsibility, bureaus may not
comply with the PIB and Federal regulations in awarding interagency agreements.

       Status: OIG is modifying and reissuing AUD/CG-12-40 Recommendation 17 to address
the development and issuance of standardized policies and procedures for Department-wide use

13
   According to PIB 2013-03, acquisition agreements are defined as “where the principal purpose of the agreement is
acquisition for goods or services via procurement.”
14
   Per 1 FAM 212.2b(1).
15
   These terms are defined in the Foreign Assistance Act of 1961, as amended (Pub. L. No. 87-195, secs. 632(a) and
632(b)).


                                                  19
                                             UNCLASSIFIED
                                      UNCLASSIFIED

for the administration of the nonacquisition interagency agreements that are not covered by PIB
2013-03.

       Recommendation 8. OIG recommends that the Procurement Executive develop and
       issue standardized policies and procedures for Department of State-wide use for the
       administration of nonacquisition interagency agreements in accordance with pertinent
       Federal regulations and revise and update the Foreign Affairs Manual and the Foreign
       Affairs Handbook to reflect these policies and procedures as appropriate.

       Management Response and OIG Reply: The Procurement Executive did not provide a
       response to this recommendation. Therefore, OIG considers this recommendation
       unresolved.

        OIG is closing Recommendation 18 in AUD/CG-12-40. However, the intent of the
recommendation as it pertains to developing and issuing standardized policies and procedures for
the review and approval of nonacquisition interagency agreements is being incorporated into a
new recommendation, No. 9, in this report. This new recommendation addresses the fact that the
Department has not developed policies and procedures pertaining to or identified an entity with
the authority and responsibility for providing Department-wide oversight, approval, monitoring,
and review of nonacquisition interagency agreements.

       Recommendation 9. OIG recommends that the Under Secretary for Management
       designate a Department entity with the authority and responsibility for providing
       oversight of nonacquisition interagency agreements. The responsibilities should include
       developing, issuing, revising, and updating standardized policies and procedures for
       inclusion in the Foreign Affairs Manual and the Foreign Affairs Handbook; approving
       bureau nonacquisition interagency agreements as appropriate; and monitoring and
       reviewing bureau compliance with these and other requirements.

       Management Response and OIG Reply: The Under Secretary for Management did not
       provide a response to this recommendation. Therefore, OIG considers this
       recommendation unresolved.




                                           20
                                      UNCLASSIFIED
                                       UNCLASSIFIED

              List of Modified, Reissued, and New Recommendations
Recommendation 1. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs conduct Data Quality Assessments in accordance with the
seven-step methodology from the annual guidance provided by the Office of U.S. Foreign
Assistance Resources to ensure that the data used in reporting results are as complete, accurate,
consistent, and supportable as possible.

Recommendation 2. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs formally designate qualified and trained contracting
officer’s representatives or other monitoring and oversight personnel for all interagency
agreements in accordance with the Department’s Procurement Information Bulletin 2013-03 and
the Department of State Acquisition Regulations, Part 642, or the Procurement Information
Bulletin on nonacquisition interagency agreements when issued.

Recommendation 3. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs request and review performance and financial supporting
documentation, as advised by the Department’s Procurement Information Bulletin 2013-03, or
the as-yet unissued Procurement Information Bulletin on nonacquisition interagency agreements
when it is issued and the Federal Assistance Policy Handbook to substantiate the information
contained in the required reports received from interagency acquisition agreement recipients and
to maintain appropriate documentation of those reviews.

Recommendation 4. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs formally issue Program and Policy Notice 2013-005 to
ensure that reporting requirements are met by interagency acquisition agreement recipients and,
if they are not, that appropriate steps are taken to address delinquent reporting.

Recommendation 5. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs document the results of accounting for the $600,000 in
Economic Support Funds transferred to the U.S. Agency for International Development and the
determination regarding whether or not the funds should be returned to the Department of State.

Recommendation 6. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs implement the guidance provided in the Department’s
Procurement Information Bulletin 2013-03 and the Contracting Officer’s Handbook or the as-yet
unissued Procurement Information Bulletin on nonacquisition interagency agreements when
issued and the Department’s Foreign Affairs Handbook, as appropriate, to develop evaluative
factors to identify interagency agreements that may merit closer coordination and require
interagency agreement monitoring personnel to perform site visits for each interagency
agreement recipient at least once during the life of the agreement or more frequently depending
on the assessment of evaluative factors.

Recommendation 7. OIG recommends that the Bureau of Oceans and International
Environmental Scientific Affairs update the language in its formal solicitation letters for
interagency agreements, as well as the language in all formal interagency agreements, in


                                            21
                                       UNCLASSIFIED
                                       UNCLASSIFIED

accordance with the Department’s Procurement Information Bulletin 2013-03 or the
Procurement Information Bulletin on nonacquisition interagency agreements when issued, to
include, for purposes of substantiation, the requirement for all recipients to maintain supporting
documentation for all financial expenditures, all project activities, and pertinent achievements as
reported in the recipients’ performance and financial reports.

Recommendation 8. OIG recommends that the Procurement Executive develop and issue
standardized policies and procedures for Department of State-wide use for the administration of
nonacquisition interagency agreements in accordance with pertinent Federal regulations and
revise and update the Foreign Affairs Manual and the Foreign Affairs Handbook to reflect these
policies and procedures as appropriate.

Recommendation 9. OIG recommends that the Under Secretary for Management designate a
Department entity with the authority and responsibility for providing oversight of nonacquisition
interagency agreements. The responsibilities should include: developing, issuing, revising and
updating standardized policies and procedures for inclusion in the Foreign Affairs Manual and
the Foreign Affairs Handbook; approving bureau nonacquisition interagency agreements as
appropriate; and monitoring and reviewing bureau compliance with these and other
requirements.




                                            22
                                       UNCLASSIFIED
                                      UNCLASSIFIED

                                                                                     Appendix A
                                  Scope and Methodology
       The objectives of this compliance review were to assess Department of State
(Department) actions with respect to selected open recommendations from the July 2012 Office
of Inspector General (OIG) report Audit of Bureau of Oceans and International Environmental
and Scientific Affairs Administration and Oversight of Funds Dedicated To Address Global
Climate Change (AUD/CG-12-40) and to determine whether the recommendations should be
closed or reissued. In addition, OIG reviewed one closed recommendation (No. 15) to determine
whether original deficiencies were fully addressed. Following initial discussions with officials
from the Bureau of Oceans and International Environmental and Scientific Affairs (OES) and the
Bureau of Administration, Office of the Procurement Executive (A/OPE), on the statuses of the
open recommendations from AUD/CG-12-40, OIG expanded its original scope to include an
assessment of the Department’s actions on all open recommendations in the report.

         In setting the original scope of this compliance followup audit, OIG identified five open
recommendations (Nos. 1, 12, 13, 17, and 18) with which to assess the Department’s actions and
one closed recommendation (No. 15) with which to determine whether the original deficiencies
were fully addressed. In initial discussions with officials from OES and A/OPE, it was
determined that the five open recommendations selected for assessment were still awaiting final
action and that implementation would not be completed during this audit. OIG also determined
that OES did not make any new solicitations or enter into any new interagency agreements or
grants subsequent to the recommendations’ implementation, precluding an assessment of the
present and future impact of the corrective actions taken for Recommendation 15—or the other
closed recommendations—on the original deficiencies identified. Consequently, OIG expanded
its original scope to include an assessment of the Department’s actions on all open
recommendations from AUD/CG-12-40.

        Fieldwork was conducted between May 28 and August 26, 2013, at Department bureaus
and offices located in Washington, DC, and in Rosslyn, VA.

        To assess actions taken to implement Recommendations 1–16, OIG interviewed officials
from OES and reviewed documentation provided as a result of those discussions. OES was
responsible for implementing Recommendations 1–16. OIG also reviewed all compliance
responses and supporting documentation provided by OES to OIG from the issuance of the draft
report through OES’ most recent response of May 17, 2013.

        To assess actions taken to implement Recommendations 17 and 18, OIG interviewed
officials from A/OPE and the Bureau of Administration, Office of Logistics Management, Office
of Acquisitions Management (A/LM/AQM). A/OPE, in coordination with A/LM/AQM, was
responsible for the implementation of Recommendations 17 and 18. In addition, OIG met with
representatives from the Bureau of International Narcotics and Law Enforcement Affairs, the
Bureau of the Comptroller and Global Financial Services, and the Office of the Legal Advisor
who were members of the working group established to address Recommendations 17 and 18 in
the prior report. A/OPE officials were responsible for the implementation of Recommendations
17 and 18. OIG also reviewed all compliance responses and supporting documentation provided
by A/OPE to OIG from the issuance of the draft report through A/OPE’s most recent response of
May 15, 2013.
                                           23
                                      UNCLASSIFIED
                                      UNCLASSIFIED


        This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that OIG plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for the findings and conclusions based on the
audit objective. OIG believes the evidence obtained provides a reasonable basis for the findings
and conclusions based on the audit objectives.

Review of Internal Controls

       OIG did not assess the adequacy of internal controls related to the area reviewed.

Use of Computer-Processed Data

       OIG did not use computer-generated data to conduct this review.




                                           24
                                      UNCLASSIFIED
                                       UNCLASSIFIED

                                                                                      Appendix B
             Original Recommendations From Report AUD/CG-12-40

Recommendation 1. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, conduct Data Quality
Assessments in accordance with the six-step methodology from the annual guidance provided by
the Office of U.S. Foreign Assistance Resources to ensure that the data used in reporting results
are as complete, accurate, consistent, and supportable as possible.

Recommendation 2. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change (OES/EGC), implement Grants
Policy Directive 16, “Designation of Grants Officer Representative,” by ensuring that the Grants
Officer completes current Grants Officer Representative (GOR) designation memorandums
throughout the life cycles of all grants. OES/EGC should also update its Standard Operating
Procedures manual by aligning all monitoring and evaluation responsibilities under the
designated GOR as directed by Grants Policy Directive 16 and not allowing the re-delegation of
responsibilities to other program officials unless specified in the designation memorandum.

Recommendation 3. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, ensure that the Grants Officer
Representatives, in consultation with the Grants Officer, develop monitoring plans for all future
grant awards using the suggested Department of State templates included in Grants Policy
Directive 42, “Monitoring Assistance Awards.”

Recommendation 4. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, implement the requirement in
Grants Policy Directive 16, “Designation of Grants Officer Representative,” for the Grants
Officer Representatives (GOR) to review, analyze, and provide written evaluation of required
recipient Program Performance and Financial Status Reports to verify timely and adequate
performance and require the GORs’ written evaluation to be documented using the template
included in Grants Policy Directive 42, “Monitoring Assistance Awards.”

Recommendation 5. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, take appropriate actions in
accordance with the Foreign Affairs Handbook (4 FAH-3 H-674) when program performance
reports and financial reports are not submitted in a timely manner.

Recommendation 6. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, implement the guidance
provided in Grants Policy Directive (GPD) 16, “Designation of Grants Officer Representative,”
and GPD 42, “Monitoring Assistance Awards,” and require Grants Officer Representatives to
perform site visits for each grant recipient at least once during the life of the agreement or once
per year for those recipients identified as “high risk.” These visits should then be documented on
templates similar to the Monitoring Assistance Review Guide Worksheet template included in
GPD 42.

Recommendation 7. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, update the language in its formal
                                               25
                                      UNCLASSIFIED
                                        UNCLASSIFIED

solicitation letters for grant awards, as well as the language in all formal grant awards, to include
the requirement for all recipients to provide timely performance reports that describe
achievements in terms of progress toward meeting indicators, as well as goals and objectives.

Recommendation 8. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, utilize Grants Policy Directive
28, “Roles and Responsibilities for the Award and Administration of Federal Assistance” and the
Standard Terms and Conditions for Domestic and Overseas Federal Assistance Awards to
develop standard operating procedures that document responsibilities of the Grants Officer
Representative for monitoring the terms and conditions of all grant awards and promptly
notifying the Grants Officer (GO) of all changes that require the GO’s attention.

Recommendation 9. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, develop procedures to ensure
that the final reports of a recipient are obtained and reviewed by the Grants Officer
Representative for proper close-out of the project and that these documents are submitted in a
timely manner to the Grants Officer for final review and close-out.

Recommendation 10. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs formally designate qualified and trained contracting
officer’s representatives for all interagency acquisition agreements in accordance with the
Department’s State First Policy and Department of State Acquisition Regulations, Part 642, who
are knowledgeable of the monitoring and oversight duties established in the Department’s
Contracting Officer’s Representative Handbook.

Recommendation 11. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, request and review performance
and financial supporting documentation as advised by the Federal Assistance Policy Handbook
to substantiate the information contained in the required reports received from interagency
acquisition agreement recipients and that it maintain appropriate documentation of those reviews.

Recommendation 12. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change (OES/EGC), develop appropriate
standard operating procedures to ensure that reporting requirements are met by interagency
acquisition agreement recipients and, if they are not, that appropriate steps are taken to address
delinquent reporting. Also, OES should coordinate with the Office of U.S. Foreign Assistance
Resources to properly account for the $600,000 in Economic Support Funds transferred to the
U.S. Agency for International Development and, if determined appropriate, work to return the
funds to the Department of State for appropriate use or de-obligation.

Recommendation 13. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, implement the guidance
provided in the Department of State’s Foreign Affairs Handbook and the Contracting Officer’s
Representative Handbook and require contracting officer’s representatives to perform site visits
for each interagency agreement recipient at least once during the life of the agreement or once a
year for those recipients identified as “high risk.”



                                             26
                                        UNCLASSIFIED
                                       UNCLASSIFIED

Recommendation 14. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs obtain State First Waivers for all future interagency
agreements and maintain approved waivers in its files, as required by State First Policy.

Recommendation 15. OIG recommends that the Bureau of Oceans and International
Environmental and Scientific Affairs, Office of Global Change, update the language in its formal
solicitation letters for interagency agreements, as well as the language in all formal interagency
agreements, to include the requirement for all recipients to provide timely performance reports
that describe achievements in terms of progress toward meeting indicators, as well as goals and
objectives.

Recommendation 16. OIG recommends that the Bureau of Oceans and International
Environmental Scientific Affairs, Office of Global Change, update the language in its formal
solicitation letters for interagency agreements, as well as the language in all formal interagency
agreements, to include, for purposes of substantiation, the requirement for all recipients to
maintain supporting documentation for all financial expenditures and all project activities and
pertinent achievements as reported in the recipients’ performance and financial reports.

Recommendation 17. OIG recommends that the Procurement Executive develop and issue
standardized policies and procedures for Department of State-wide use for the administration of
interagency acquisition agreements and interagency agreements in accordance with pertinent
Federal regulations and revise the State First Policy to establish that the policy also applies to
interagency agreements, since the policy as written represents sound business practices.

Recommendation 18. OIG recommends that the Procurement Executive, in coordination with
the Director, Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management, develop and issue standardized policies and procedures for the review and
approval of all types of interagency agreements that will ensure compliance with applicable
Federal regulations and Department of State policies governing each type of agreement.




                                            27
                                       UNCLASSIFIED
                                 UNCLASSIFIED

                                                                                              Appendix C

       Bureau of Oceans and International Environmental
                 and Scientific Affairs Response

                                           United States Department of State
                                          Assistani Secre1ary ofStale ji>r Oceans and
                                         International Environmenlal and Scientific Affairs
                                           Washington, D.C. 20520



UNCLASSIFIED                                                December 11,2013

MEMORANDUM

TO:          OIG/ AUD- Nonnan P. Brown, Acting

FROM:        OES- Kerri-Ann Jones    'fJf1-r..YP"'·
SUBJECT: Response to Draft Report on Compliance Followup Audit of Bureau of
Oceans and International Environmental and Scientific Affairs ' Administration and
Oversight of Funds Dedicated To Address Global Climate Change

The Bureau of Oceans and International Environmental and Scientific Affairs (OES)
welcomes the opportunity to respond to recommendations in the Office of Inspector
General's (OJG) draft compliance follow-up audit (CFA) as well as OJG' s
recommendations in the underlying audit AUD/CG- 12-40 (July 2012).

OES programs serve a crucial strategic function in U.S. climate change diplomacy.
OES program funds have enabled the United States to launch and play a leading role
in high-profile initiatives that address methane and other short-lived climate
pollutants, to cooperate globally on the development and deployment of key clean
energy technologies, to stimulate private sector investments in deforestation and
clean energy infrastructure, and to align global efforts to respond to the impacts of
extreme weather and climate events. In addition to the direct benefits oftbese and
other OES programs for developing countries, U.S. climate assistance has allowed us
to deepen our relationships with international partners and has significantly enhanced
U.S. standing as a leader in the effort to achieve real-world results, even as we work
to negotiate an effective global approach to climate change.

We take very seriously our responsibility for sound program management and quality
control. OES has worked continuously during the program' s six-year existence to
improve our financial planning, award development, and monitoring and evaluation
procedures. As our program has grown over the past three years, we have devoted
greater resources to implement Department guidance, ensure effective oversight, and
enhance our ability to achieve program objectives. Since the 2012 OIG audit, we
have worked diligently to improve our procedures and systems to further strengthen
our program oversight capabilities. OES will continue to work closely with offices




                                      28
                                 UNCLASSIFIED
                                 UNCLASSIFIED




                                  UNCLASSIFlED
                                       2

responsible for administering Departmental policies as these policies evolve and are
implemented.

We describe below the actions we have taken in our response to specific
recommendations. But some context is helpful to understand our responses.
Interagency Acquisition Agreements serve a critical purpose in OES climate change
assistance programming because they allow us to draw on the specialized techrllcal
expertise of other U.S. government agencies not available at the Department. This
approach is consistent with the Quadrennial Diplomacy and Development Review
(QDDR), which recognizes the value of collaboration with other government
agencies in addressing complex foreign policy issues, and encourages a whole of
government approach through greater use of other agencies for DOS programming
purposes.

We welcomed OIG's July 2012 recommendation that the Office of the Procurement
Executive (OPE) develop and disseminate new Department policies and procedures
for developing and monitoring Interagency Agreements, and applaud OPE's
subsequent issuance of Procurement Information Bulletin (PIB) 2013-03 for
interagency acquisition agreements. OPE intends to issue a companion PIB to
address nonacquisition interagency agreements. OES has been actively providing
input to OPE on the development of these new policies in an effort to support the
formulation of appropriate requirements for acquisition and nonacquisition
interagency agreements and to enable successful interagency collaboration while
maintaining sound managerial oversight and accountability.

OES operates in accordance with PIB 2013-03 for interagency acquisition
agreements, including using 7600A/B forms and corresponding OPE guidance. Until
OPE issues a new PIB on nonacquisition interagency agreements, OES will continue
to operate under existing OPE policy, including using the DS-1921 form and current
corresponding OPE guidance. Recommendations 3 and 6 pertain to nonacquisition
interagency agreements. Once OPE establishes a policy for nonacquisition
interagency agreements, OES will be in a position to complete action on these two
recommendations.

Specific comments and responses to each of the OIG's recommendations follow:

Recommendation 1. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs conduct Data Quality
Assessments in accordance with the seven-step methodology from the annual

                                  UNCLASSIFIED




                                      29
                                 UNCLASSIFIED
                                  UNCLASSIFIED




                                   UNCLASSIFIED
                                        3

guidance provided by the Office of U.S. Foreign Assistance Resources to ensure
that the data used in reporting results are as complete, accurate, consistent, and
as supportable as possible.

OES Resoonse: The Bureau concurs with the recommendation to conduct Data
Quality Assessments (DQAs) in accordance with the seven-step methodology from
annual guidance provided by the Office of the Director of U.S. Foreign Assistance
Resources (F). A multi-year $1,000,000 contract was awarded in September 2013 for
the purposes of conducting Data Quality Assessments in keeping with the prescribed
F methodology as well as to underpin the quality of reporting by OES-funded
recipients for the annual performance plan and report. Since contract initiation, the
retained firm has conducted DQA processes against indicators in the funded portfolio
and will continue these activities to help ensure that the data used in Bureau reporting
results are well supported. Documentation of compliance with the above
recommendation will be provided separately to the OIG upon transmission of this
letter.

Recommendation 2. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs formally designate (a)
qualified and trained contracting officer's representatives or (b) other
monitoring and oversight personnel for all interagency agreements in
accordance with the Department's Procurement Information Bulletin 2013-03
and the Department of State Acquisition Regulations, Part 642, or the
Procurement Information Bulletin on nonacquisition interagency agreements
when issued.
OES Response: The Bureau concurs with the recommendation and has designated
qualified and trained contracting officer's representatives for aJJ interagency
agreements for acquisition in accordance PTB 2013-03 and the Department of State
Acquisition Regulations, Part 642. In addition, OES is consistently designating
qualified and trained interagency agreement managers for all nonacquisition
interagency agreements. Upon issuance of the PIB for nonacquisition interagency
agreements, OES will update its Bureau standard operating procedures, as necessary,
to ensure that designated Bureau monitoring and oversight personnel meet any new
Department qualifications in accordance with that policy. Documentation of
compliance with this recommendation will be provided separately to the OIG upon
transmission of this letter.

Recommendation 3. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs request and review

                                   UNCLASSIFIED




                                       30
                                  UNCLASSIFIED
                                 UNCLASSIFIED




                                 UNCLASSIFIED
                                          4

performance and financial supporting documentation, as advised by the
Department's Procurement Information Bulletin 2013-03, or tbe as-yet
unissued Procurement Information Bulletin on nonacquisition interagency
agreements when issued and the Federal Assistance Policy Handbook, to
substantiate the information contained in the required reports received from
interagency acquisition agreement recipients and to maintain appropriate
documentation of those reviews.
OES Response: The Bureau concurs w ith the recommendation and will, insofar as
advised by the PIB 2013-03, or the as-yet unissued Procurement Information
Bulletin on nonacquisition interagency agreements when issued and the Federal
Assistance Policy Handbook, request and review performance and financial
supporting documentation to substantiate the information contained in the required
reports received from interagency acquisition agreement recipients and will maintain
appropriate documentation of those reviews. OES looks forward to receiving the
Procurement Executive's issuance of policy regarding nonaquisition interagency
agreements per recommendation 8 of the compliance followup report.

Recommendation 4. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs formally issue Program and
Policy Notice 2013-005 to ensure that reporting requirements are met by
interagency acquisition agreement recipients and, if they are not, that
appropriate steps are taken to address delinquent reporting.
OES Response: The Bureau concurs with this recommendation, and provided the
fi nal published Program and Policy Notice 2013-005 to the OIG on D ecember 5,
20 13 in compliance w ith this recommendation.

Recommendation 5. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs document tbe results of
accounting for the $600,000 in Economic Support Funds transferred to the U.S.
Agency for International Development and the determination regarding
whether or not the funds should be returned to the Department of State.
OES Response: The Bureau concurs with the recommendation and will continue to
document the results of accounting for the $600,000 in Economic Support funds
transferred to the U.S. Agency for International Development, a process that is
current ly ongoing. OES confrrms that the programmatic activity for which the funds
were transferred was implemented in good faith by the U.S. Agency for International
Development. OES has continued to gather the specific information to account for
the funds, meeting with representatives of the partner agency and gathering
supporting documentation. Any documentation for the determination on the fmal
disposition of funds will be provided to the ora.
                                   UNCLASSIFIED




                                      31
                                 UNCLASSIFIED
                                 UNCLASSIFIED




                                  UNCLASSlFIED
                                          5

Recommendation 6. OIG recommends that the Bureau of Oceans and
International Environmental and Scientific Affairs implement the guidance
provided in the Department's Procurement Information Bulletin 2013-03 and
Contracting Officer's Representative Handbook; or the as-yet unissued
Procurement Information Bulletin on nonacquisition interagency agreements
when issued and the Department's Foreign Mfairs Handbook; as appropriate,
to develop evaluative factors to identify interagency agreements that may merit
closer coordination and require interagency agreement monitoring personnel to
perform site visits for each interagency agreement recipient at least once during
the life of the agreement or more frequently depending on the assessment of
evaluative factors.
OES Response: OES concurs with the recommendation and will implement the
guidance provided in the Department's Procurement Information Bulletin 2013-03
and Contracting Officer's Representative Handbook; or the as-yet unissued
Procurement Information Bulletin on nonacquisition interagency agreements when
issued and the Department's Foreign Affairs Handbook; as appropriate, to develop
evaluative factors to identify interagency agreements that may merit closer
coordination and oversight. OES looks forward to receiving the Procurement
Executive's issuance of policy regarding nonaqujsition interagency agreements per
recommendation 8 ofthe compliance followup report.

Recommendation 7. OIG recommends that the Bureau of Oceans and
International Environmental Scientific Affairs update the language in its formal
solicitation letters for interagency agreements, as well as the language in all
formal interagency agreements, in accordance with the Department's
Procurement Information Bulletin 2013-03 or the Procurement Information
Bulletin on nonacquisition interagency agreements when issued, to include, for
purposes of substantiation, the requirement for all recipients to maintain
supporting documentation for all financial expenditures a nd all project activities
and pertinent achievements as reported in the recipients' performance and
financial reports.
OES Response: OES concurs with the recommendation and has already updated the
language in its formal solicitation letters for interagency agreements, as well as the
language in all newly-issued or amended interagency agreements, to include, for
purposes of substantiation, the requirement for aU recipients to maintain supporting
documentation for all financial expenditures and all project activities and pertinent
achievements as reported in the recipients' performance and fmancial reports.
Documentation of compliance with the above recommendation will be provided
separately to the OIG upon transmission of this letter.

                                  UNCLASSIFIED




                                      32
                                 UNCLASSIFIED
                                  UNCLASSIFIED




Major Contributors to This Report

Naomi Snell, Director
Audit Compliance and Followup Division
Office of Audits

Lenora Fuller-McCall, Audit Manager
Audit Compliance and Followup Division
Office of Audits

Basil Temchatin, Lead Auditor
Audit Compliance and Followup Division
Office of Audits




                                       33
                                  UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
